                                                    NATIONAL SCIENCE FOUNDATION
                                                     OFFICE OF INSPECTOR GENERAL
                                                       OFFICE OF INVESTIGATIONS

                                              CLOSEOUT MEMORANDUM

 Case Number: A11110078                                                                        Page 1 of 1




                  Our office received an allegation that the proposal 1 of aPe contained plagiarized material.
          Our review of the matter determined that the allegation was not substantiated. Accordingly, this case
          is closed with no further action taken.




NSF OIG Form 2 (11/02)
